        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Evaluation Report
The Department's Unclassified
Cyber Security Program – 2011




DOE/IG-0856                         October 2011
                                  Department of Energy
                                    Washington, DC 20585
                                        October 20, 2011



MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General
SUBJECT:                INFORMATION: Evaluation Report on "The Department's Unclassified
                        Cyber Security Program – 2011"

INTRODUCTION AND OBJECTIVE

The Department of Energy's numerous information systems are routinely threatened with
sophisticated cyber attacks. According to the Office of Management and Budget and the
Department of Homeland Security's U.S. Computer Emergency Readiness Team, cyber attacks
against Federal agencies' websites and networks increased almost 40 percent last year. Attackers
continued to exploit vulnerabilities in applications and products. To mitigate the risks associated
with cyber security threats, the Department expended significant resources in Fiscal Year (FY)
2011 on cyber security measures designed to secure its systems and information that support
various program operations to advance energy and national security, scientific discovery and
innovation, and environmental responsibility.

The Federal Information Security Management Act of 2002 (FISMA) established requirements
for all Federal agencies to develop and implement agency-wide information security programs.
FISMA also directed Federal agencies to provide appropriate levels of security for the
information and systems that support the operations and assets of the agency, including those
managed by another agency or contractors. As required by FISMA, the Office of Inspector
General conducted an independent evaluation to determine whether the Department's
unclassified cyber security program adequately protected its data and information systems. This
memorandum and the attached report document the results of our evaluation for FY 2011.

RESULTS OF EVALUATION

The Department had taken steps over the past year to address previously identified cyber security
weaknesses and enhance its unclassified cyber security program. While these were positive
steps, additional action is needed to further strengthen the Department's unclassified cyber
security program and help address threats to its information and systems. For example, our
FY 2011 evaluation disclosed that corrective actions had been completed for only 11 of the 35
cyber security weaknesses identified in our FY 2010 review. In addition, we identified
numerous weaknesses in the areas of access controls, vulnerability management, web application
integrity, contingency planning, change control management, and cyber security training. While
many of the same or similar issues had been noted in prior FISMA reports, the number of
weaknesses identified represented a 60 percent increase over our FY 2010 review. Specifically:

   •   At 11 locations, including Headquarters, we identified 18 deficiencies related to access
       controls, such as failure to perform periodic management reviews of user accounts,
                                                2


       inadequate management of user access privileges, default or weak usernames and
       passwords, lack of segregation of duties, and lack of logging and monitoring of user
       activity;

   •   We identified 21 weaknesses related to vulnerability management at 15 locations.
       Specifically, we found desktops and network systems and devices running applications
       without current security patches for known vulnerabilities – situations that could allow
       unauthorized access to system resources;

   •   At 10 locations, we identified 14 weaknesses in at least 32 different web applications
       used to support functions such as procurement and safety. These vulnerabilities could be
       exploited by attackers to deliberately or inadvertently manipulate network systems;

   •   One of the sites we reviewed had not developed a business continuity/disaster recovery
       plan or an overall business impact analysis – key elements designed to correlate specific
       system components with the services that are provided and characterize the consequences
       of a disruption to the system;

   •   Change control management weaknesses were also observed at several locations. For
       example, we determined that although one site had developed a Cyber Security
       Configuration Management Procedure that required the system change control process to
       include testing or modeling the impact of changes to the current system, it had not
       properly maintained application change test plans and results; and,

   •   Finally, we found that one site had not fully implemented an annual cyber security
       refresher training program designed to provide basic security awareness training to all
       users.

The weaknesses identified occurred, in part, because Departmental elements had not ensured that
cyber security requirements included all necessary elements and were properly implemented.
Program elements also did not always utilize effective performance monitoring activities to
ensure that appropriate security controls were in place. Without improvements to its unclassified
cyber security program, such as consistent risk management practices and adopting processes to
ensure security controls are appropriately developed, implemented and monitored, there is an
increased risk of compromise and/or loss, modification, and non-availability of the Department's
systems and information. As observed in the recent cyber attacks at four sites, exploitation of
vulnerabilities can cause significant disruption to operations and/or increase the risk of
modification or destruction of sensitive data or programs.

As the number of cyber security threats increases, including attacks from both domestic and
international sources, it has become increasingly important that the Department intensify efforts
to safeguard its systems and the information they contain. During the past year, the Department
had taken action to update its cyber security policy, and the National Nuclear Security
Administration (NNSA) had reestablished periodic site-level cyber security reviews. However,
given the increased number of vulnerabilities discovered this year, it is clear that continued
                                                 3


vigilance is necessary. In this regard, we made several recommendations to help the Department
strengthen its unclassified cyber security program for protecting its systems and data from the
threat of compromise, loss or modification.

Due to security considerations, information on specific vulnerabilities and locations has been
omitted from this report. Site and program officials were provided with detailed information
regarding respective vulnerabilities identified and, in many instances, corrective actions were
initiated.

MANAGEMENT REACTION

Management concurred with the report's recommendations and disclosed that it had initiated or
already completed actions to address issues identified in our report. NNSA officials expressed
concern with our characterization of the scope, severity, and cause of the issues presented in our
report. NNSA also criticized our evaluation approach, asserting that it focused strictly on a
compliance checklist approach that did not adequately consider current Federal policies relating
to risk-based, cost effectiveness approaches to cyber security.

We take specific exception to NNSA's characterization of our work. Our findings were based on
targeted tests of systems using a wide variety of recognized tools and methods. As a matter of
course, we specifically considered risk acceptance and compensating controls. In addition, our
work was based on Federal cyber security requirements that were relevant to the period of
evaluation and provided for consideration of risk and cost effectiveness. Finally, the results of
the evaluation cannot be directly projectable to the entire universe of Department systems and we
do not attempt to do so. However, we believe that it would be prudent to ensure that the
vulnerabilities that we have identified are considered throughout the complex in a cost effective
way. Management's comments and our response are summarized and more fully discussed in the
body of our report. Management's formal comments are included in their entirety in Appendix 3.

Attachment

cc:   Deputy Secretary
      Associate Deputy Secretary
      Under Secretary for Nuclear Security
      Under Secretary for Science
      Acting Under Secretary of Energy
      Chief Health, Safety and Security Officer
      Chief Information Officer
      Chief Information Officer, National Nuclear Security Administration
      Chief of Staff
EVALUATION REPORT ON THE DEPARTMENT'S UNCLASSIFIED
CYBER SECURITY PROGRAM - 2011


TABLE OF
CONTENTS


The Department's Unclassified Cyber Security Program

Details of Finding ............................................................................................................................1

Recommendations and Comments ...................................................................................................8


Appendices

1. Objective, Scope and Methodology .........................................................................................11

2. Related Reports ........................................................................................................................13

3. Management Comments ..........................................................................................................17
The Department's Unclassified Cyber Security Program – 2011

Program                 The Department of Energy (Department) had taken steps to
Improvements            address previously identified cyber security weaknesses and
                        enhance its unclassified cyber security program. We found that
                        corrective actions had been taken to resolve 11 of 35
                        weaknesses identified during our Fiscal Year (FY) 2010
                        evaluation of The Department's Unclassified Cyber Security
                        Program - 2010 (DOE/IG-0843, October 2010) related to
                        configuration and vulnerability management, access controls,
                        system integrity, performance monitoring, and oversight. Also,
                        the Department had made additional changes to its unclassified
                        cyber security program in response to the growing cyber
                        security threat. Specifically:

                               •   The National Nuclear Security Administration
                                   (NNSA) corrected a previously identified weakness
                                   from our FY 2007 review by reestablishing periodic
                                   site evaluations to review the effectiveness of
                                   Federal field site offices in carrying out their
                                   responsibilities for proper implementation of
                                   Federal cyber security requirements by field
                                   organizations and facility contractors. At the time
                                   of our review, several unclassified assessments had
                                   been completed; and,

                               •   The Department issued Order 205.1B, Department
                                   of Energy Cyber Security Program, in May 2011.
                                   The key elements of the revised Directive include
                                   continuous monitoring and assessment of the risk
                                   management process, and required that Federal
                                   oversight be conducted through assurance systems
                                   that monitor the risk evaluation and protection
                                   processes at each level in the organization.

Security Controls and   Although the Department made progress addressing previously
Risk Management         identified conditions, we continued to find weaknesses similar
                        in type and risk level to those identified during our FY 2010
                        review. Our review of the Under Secretary for Nuclear
                        Security, Under Secretary for Science, and Under Secretary of
                        Energy organizations identified various control weaknesses
                        related to access controls, vulnerability management, integrity
                        of web applications, contingency planning, change control
                        management, and cyber security training. Based on the results
                        of our work, we noted that the number of weaknesses increased
                        significantly for the second year in a row, including a 60
                        percent increase in the number of weaknesses since last year.




Page 1                                                              Details of Finding
         Based on testing conducted at 25 locations, including
         Headquarters, there were 32 new weaknesses identified and 24
         weaknesses remained from the prior year's review. In a
         number of instances, site officials took action to correct certain
         weaknesses shortly after we identified them. The weaknesses
         we discovered are detailed in the remainder of our report.

                                 Access Controls

         Although the Department corrected four of nine previously
         identified access control weaknesses, it continued to experience
         vulnerabilities in this area. Access controls consist of both
         physical and logical measures designed to protect information
         resources from unauthorized modification, loss or disclosure.
         To ensure that only authorized individuals can gain access to
         networks or systems, controls of this type must be strong and
         functional. We identified 18 access control deficiencies at 11
         locations reviewed. In particular:

            •   We identified 12 account management weaknesses at
                8 locations, including failure to perform periodic
                management reviews of user accounts and adequately
                manage user access privileges. Access privileges that
                were not adequately managed included account
                establishment, modification, review, disablement, and
                removal. While officials at one site had conducted a
                review, they had not removed responsibilities for nine
                users that no longer required access to perform their job
                function;

            •   Internal vulnerabilities involving weak access controls
                in network services related to default or weak username
                and passwords were observed at four sites reviewed. At
                one location, a network server system was configured
                to accept connections from another system without the
                use of authentication or similar access controls, which
                would allow remote control of the affected system. At
                another site, we found eight network services and/or
                devices with password management weaknesses.
                Furthermore, we noted weaknesses at one site that
                could allow an attacker to exploit this vulnerability to
                obtain access to the operating system supporting the
                production database server;

            •   We identified three locations with segregation of duties
                issues. Specifically, system administrators used their
                privileged accounts to inappropriately perform both

Page 2                                                 Details of Finding
                privileged and non-privileged functions. Segregation of
                duties is a critical control that ensures the separation of
                the functions of authorizing, processing, recording, and
                reviewing input data; and,

            •   One site did not log and monitor its information system
                activities. Absent effective audit and accountability
                practices, including information system auditing,
                logging, and monitoring, the risk of malicious or
                unauthorized access to the unclassified network,
                systems and related applications may be increased.

                           Vulnerability Management

         Despite corrective actions initiated to resolve vulnerability
         management issues identified in our prior evaluation, we
         continued to find weaknesses similar in type and risk level. In
         total, we identified 21 weaknesses related to vulnerability
         management at 15 locations. The weaknesses consisted of
         varying degrees of vulnerable applications, desktops, and
         network systems missing security updates and/or patches for
         known vulnerabilities. As weaknesses were identified, we
         considered the implementation of compensating controls, as
         appropriate. Specifically:

            •   During the FY 2010 review, we identified 13
                vulnerability and patch management internal
                weaknesses on desktop applications and 6 internal
                weaknesses on network systems and devices. Although
                four of six vulnerabilities for network systems and
                devices were addressed this year, none of the desktop
                vulnerabilities were corrected. In addition, we
                identified new desktop weaknesses at two sites and
                network vulnerabilities at three sites not identified
                during our prior year evaluation;

            •   Our review identified that 3,014 of 6,512 (46 percent)
                desktop systems tested were running operating systems
                and/or client applications without current security
                patches for known vulnerabilities. These applications
                were missing security patches for known vulnerabilities
                that had been released more than 3 months prior to our
                testing; and,

            •   We identified 52 network systems and devices that
                were running operating systems and application support
                platforms without current security patches and/or

Page 3                                                Details of Finding
                security configurations for known vulnerabilities that
                were released more than 30 days prior to testing. We
                also identified 20 network server systems running
                operating system versions that were no longer
                supported by the vendor.

         Some of the identified vulnerabilities affected systems and
         other servers hosting financial and non-financial applications
         that could have permitted individuals to gain administrator
         level access. Although some sites provided risk management
         plans and mitigating controls for the weaknesses identified,
         many of the programs' and sites' risk acceptance was not
         specific, accurate, and complete. We also found that, in many
         cases, sites had not accepted the risk of certain vulnerabilities
         until after we discovered them. In addition, while certain
         controls existed, they were not always adequate to mitigate risk
         or prevent a hacker from potentially exploiting the
         applications.

                          Integrity of Web Applications

         The Department's internal controls over the integrity of web
         applications did not always ensure that input data was validated
         and the web application was secure against unauthorized access
         and modification of data. Specifically, our performance testing
         found at least 32 web applications, used to support functions
         such as procurement and safety, did not perform validation
         procedures. Such procedures ensure that changes made to
         information and programs are only allowed in a specified and
         authorized manner and that the system's operation is not
         impaired by deliberate or inadvertent unauthorized
         manipulation, such as through software flaws and malicious
         code. However, we found that:

            •   Ten locations were operating web applications that
                contained functional design flaws and did not properly
                validate input data. At one of the sites, the application
                included a password test function that could allow an
                attacker to determine or modify the password for any
                valid user account; and,

            •   One location maintained a web application that did not
                protect accounts from brute force attacks against the
                "change password" function. Such attacks could allow
                a hacker to potentially change a user's password and
                gain access to the application.


Page 4                                                Details of Finding
         Web applications that do not properly protect access control
         functions are at risk of malicious attacks that could result in
         unauthorized access to application functionality and sensitive
         data stored in the application.

                              Contingency Planning

         Our testing found that one site had weaknesses related to
         contingency planning. Although the contingency planning
         processes at the site had improved, management had not
         developed a business continuity/disaster recovery plan to
         define emergency and restoration requirements for its
         information systems. In addition, we noted that the site had not
         developed an overall business impact analysis to characterize
         the consequences of a disruption to the system components.
         Absent effective contingency planning and a disaster recovery
         program, including formally documented business
         continuity/disaster recovery plans and a business impact
         analysis, these weaknesses may increase the risk of loss of
         critical information and data in certain types of disasters.

                          Change Control Management

         We identified change control weaknesses at several locations.
         Specifically, we determined that although one site had
         developed procedures that required testing or modeling the
         impact of changes being made to a system, it had not properly
         maintained application change test plans and results. In
         addition, our ongoing audit of the Department's Configuration
         Management of Non-Financial Systems identified that system
         and application changes did not always follow recommended
         procedures, including approval, testing, and documenting the
         risks associated with potential changes. Controls of this type
         are an integral component of a strong security policy and help
         to ensure that computer applications and systems are
         consistently configured with minimum security standards to
         prevent and protect against unauthorized modifications.

                        Cyber Security Training Program

         We noted that one site had weaknesses related to its cyber
         security training program. Although it had made
         improvements in developing a security awareness training
         program since the prior year review, including initial and
         annual refresher security awareness training, the site had not
         fully implemented an annual cyber security refresher training
         program. Within a year's time, only 35 of 1,980 users had

Page 5                                                Details of Finding
                           completed annual refresher security awareness training.
                           Effective security awareness training can be particularly useful
                           in preventing certain types of activities, such as successful
                           phishing attacks.

Implementation of      The weaknesses identified occurred, in part, because
Requirements and       Departmental elements had not ensured that cyber security
Performance Monitoring requirements included all necessary elements and were
                       properly implemented. In addition, Department programs and
                       sites did not always utilize effective performance monitoring
                       activities to ensure that appropriate security controls were in
                       place.

                                              Procedures and Processes

                           The cyber security control weaknesses identified were due, in
                           part, to inadequate development and implementation of
                           security control processes. In particular, programs and sites
                           developed policies and procedures that did not always satisfy
                           Federal or Departmental security requirements. For instance,
                           we noted that policies at certain programs and sites were not
                           aligned with Federal requirements related to access controls
                           and vulnerability/configuration management. At one site,
                           officials commented that they were not required to follow
                           Office of Management and Budget (OMB) guidance since it
                           was not documented in their contract or the Contractor
                           Requirements Document.

                           Furthermore, even when policies and procedures were in place,
                           they were not always implemented. Specifically, many of the
                           programs and sites reviewed had not followed site-level patch
                           management policies and procedures to ensure that security
                           updates were consistently applied in a timely manner. In
                           addition, many sites had established access control processes
                           that were not completely effective. For example, although one
                           site had established a process for disabling accounts that were
                           inactive for more than 60 days and deleting accounts that were
                           inactive for more than 12 months, the location had not yet fully
                           implemented the process. Another site did not follow
                           established access control processes for retaining all approved
                           enrollment forms for granting information system access to
                           new users. In addition, one site had not fully implemented
                           requirements related to logging and monitoring its information
                           systems activities.




Page 6                                                                  Details of Finding
                            Performance Monitoring

         As noted in prior years, steps had not been taken to ensure that
         performance monitoring activities were effective. For
         example, we found that many sites had not implemented an
         effective process to ensure that security patch management
         processes for desktops, network devices, and applications were
         working as designed. In addition, many of the web application
         vulnerabilities we identified occurred because programs and
         sites did not implement effective monitoring processes to
         ensure that controls were in place to identify and prevent
         application integrity issues. As the Department moves closer
         to relying on contractor assurance processes to monitor the
         effectiveness of programs, it is essential that adequate
         performance monitoring mechanisms are in place.

         In addition, Plans of Action & Milestones (POA&Ms) were not
         always effectively used to report, prioritize, and track cyber
         security weaknesses through remediation. Specifically:

            •   Many of the sites reviewed had tracked weaknesses at a
                local level; however, similar to last year's evaluation,
                we found that 15 of 35 cyber security deficiencies
                identified during our FY 2010 evaluation were not
                reported in the Department's POA&Ms maintained by
                the Office of the Chief Information Officer (OCIO), as
                required by OMB. In addition, POA&Ms did not
                contain all cyber security weaknesses identified in
                numerous security related Office of Inspector General
                reports;

            •   Our evaluation identified approximately 45 percent of
                open milestones captured in the POA&Ms were beyond
                their original projected remediation date. For instance,
                we noted that 103 open milestones were at least 1 year
                beyond their estimated remediation date; and,

            •   Although required by the Department and OMB,
                POA&Ms were not requested by or submitted to the
                OCIO for the first and third quarters of FY 2011, which
                limited the OCIO's ability to identify areas of concern
                and review the progress of cyber security weakness
                remediation.

         As noted by the National Institute of Standards and
         Technology (NIST), POA&Ms are an important means of


Page 7                                                Details of Finding
                    identifying and managing an entity's progress towards
                    eliminating gaps between required security controls and those
                    that are actually in place.

Information and     Without improvements to its unclassified cyber security
Systems Remain at   program, such as consistent risk management practices and
Risk                adopting processes to ensure security controls are fully
                    developed and implemented, there is an increased risk of
                    compromise and/or loss, modification, and non-availability of
                    the Department's systems and information. Although many
                    sites had implemented certain compensating controls to
                    mitigate the risk associated with vulnerabilities, our testing
                    revealed that malicious individuals could execute attacks
                    against the vulnerable systems, applications, and user desktops
                    by using sophisticated methods.

                    As noted by recent successful attacks at four Department
                    locations, exploitation of vulnerabilities can cause significant
                    disruption to operations and/or increases the risk of
                    modification or destruction of sensitive data or programs, and
                    possible theft or improper disclosure of confidential
                    information. In addition, recovery efforts for these attacks can
                    be very costly. For example, the estimated cost to the
                    Department for the recent cyber attacks at three of the four
                    sites was over $2 million. Therefore, continued vigilance is
                    necessary due to the recent Department incidents and increased
                    cyber attacks by both domestic and international sources.

RECOMMENDATIONS     In light of the issues identified in our report, it is essential that
                    the Department effectively implement its new Order 205.1B,
                    Department of Energy Cyber Security Program, to aid in the
                    continuous monitoring and assessment of the risk management
                    process. To help ensure these processes are fully implemented
                    and to address the weaknesses identified in this report, we
                    recommend that the Under Secretary for Nuclear Security,
                    Under Secretary of Energy, and Under Secretary for Science,
                    in coordination with the Department and NNSA Chief
                    Information Officers, where appropriate:

                        1. Correct, through the implementation of appropriate
                           controls, the weaknesses identified within this report;

                        2. Ensure that procedures and processes are developed, as
                           needed, and implemented in accordance with Federal
                           and Department requirements to adequately secure
                           systems and applications;



Page 8                                         Recommendations and Comments
                      3. Ensure that effective performance monitoring practices
                         are implemented to assess overall performance for
                         protecting information technology resources; and,

                      4. Ensure that POA&Ms are developed and used to
                         prioritize and track remediation of all cyber security
                         weaknesses requiring corrective actions.

MANAGEMENT         Department and NNSA management concurred with the
REACTION AND       report's recommendations and stated that it had taken or
AUDITOR COMMENTS   initiated corrective actions to address each of the
                   recommendations. For instance, Department management
                   noted that Order 205.1B, Department of Energy Cyber Security
                   Program, required senior management organizations to
                   develop and implement procedures and processes for securing
                   information, systems and applications. In addition,
                   management disclosed that it was working towards the use of a
                   centralized repository for POA&M reporting to improve
                   accuracy and ease of reporting. NNSA management
                   commented that its systems were protected by distinctive,
                   layered, and defense in-depth approaches and that substantive
                   risks to systems at one site almost certainly present no or
                   extremely limited risks to systems at other sites.

                   While NNSA concurred with our recommendations, it
                   disagreed with the characterization of the scope, severity, and
                   cause of the issues presented in our report. We have
                   summarized NNSA management's comments and provided our
                   response for each. Management's comments are included in
                   their entirety in Appendix 3.

                   NNSA management commented that finding a relatively small
                   number of misconfigured devices at the sites reviewed did not
                   inherently suggest widespread weaknesses of control and that
                   the fractional percentages of misconfigured devices identified
                   were isolated issues at the system-level and not across the
                   Nuclear Security Enterprise. Management also stated that the
                   weaknesses identified in our report did not account for
                   compensating controls and may have been within the sites'
                   acceptable risk.

                   We agree that the results of our vulnerability testing cannot be
                   projected across the Department and, as such, did not attempt
                   to do so in our report. However, given that the vulnerabilities
                   identified within NNSA spanned desktops, applications, and
                   network devices, we do not believe that our findings are
                   necessarily isolated incidents. As noted in the report, our test


Page 9                                                                  Comments
          work revealed that the weaknesses, if exploited, could have
          permitted a malicious user to compromise systems or data. As
          part of our test work, we fully considered site-level risk
          assessments and compensating controls. As such, many of the
          vulnerabilities initially identified during our evaluation were
          not included in this report based on our discussions with site
          officials related to their acceptance of risk and related
          compensating controls. In many cases, sites were unaware of
          the vulnerabilities we identified prior to our testing.

          NNSA management commented that although previous efforts
          to implement security controls consistently throughout the
          Federal government focused on compliance with specific
          controls and technologies, NIST recently updated policies and
          guidance supporting a unified risk-based information security
          framework to implement cost-effective security controls.
          Management asserted that audits continue to be based upon
          system compliance checklists and not according to current
          cyber security methodologies that target the strength of layered
          defense strategies that will effectively mitigate some of the
          risks to an acceptable level, as well as significantly reduce the
          cost and burden of implementation and maintenance of certain
          security controls at the system-level.

          The Federal Information Security Management Act of 2002
          requires us to evaluate the Department's security posture
          against Federal standards, including the consideration of risk
          acceptance practices and compensating controls. Our test work
          was not based on compliance checklists, but rather used a wide
          range of tools to evaluate the effectiveness of security controls.
          For instance, our vulnerability testing included both internal
          and external testing that utilized tools readily available to
          hackers and other malicious individuals. In addition, our
          testing methodology is regularly evaluated and updated to keep
          pace with evolving cyber security threats.




Page 10                                                        Comments
Appendix 1

OBJECTIVE     To determine whether the Department of Energy's (Department
              or DOE) unclassified cyber security program adequately
              protected its information and systems.

SCOPE         The evaluation was performed between February 2011 and
              October 2011, at numerous locations under the purview of the
              National Nuclear Security Administration (NNSA), Acting
              Under Secretary of Energy, and Under Secretary for Science.
              Specifically, we performed an assessment of the Department's
              unclassified cyber security program. The evaluation included a
              limited review of general and application controls in areas such
              as entity-wide security planning and management, access
              controls, application software development and change
              controls, and service continuity. Our work did not include a
              determination of whether vulnerabilities found were actually
              exploited and used to circumvent existing controls. The
              Health, Safety and Security Office of Enforcement and
              Oversight performed a separate evaluation of the Department's
              information security program for national security systems.

METHODOLOGY   To accomplish our objective, we:

                   •   Reviewed Federal regulations, Departmental
                       directives pertaining to information and cyber
                       security such as the Federal Information Security
                       Management Act of 2002, Office of Management and
                       Budget (OMB) Circular A-130 (Appendix III), and
                       DOE Order 205.1A, Department of Energy Cyber
                       Security Management;

                   •   Reviewed applicable standards and guidance issued
                       by OMB and the National Institute of Standards and
                       Technology (NIST) for the planning and management
                       of system and information security such as Federal
                       Information Processing Standards Publication 200,
                       Minimum Security Requirements for Federal
                       Information and Information Systems; and, NIST
                       Special Publication 800-53, Recommended Security
                       Controls for Federal Information Systems and
                       Organizations;

                   •   Obtained and analyzed documentation from
                       Department programs and certain sites pertaining to
                       the planning, development, and management of cyber




Page 11                                Objective, Scope and Methodology
Appendix 1 (continued)

                             security related functions such as program cyber
                             security plans, Plans of Action and Milestones, and
                             budget information; and,

                         •   Held discussions with officials from the Department
                             and NNSA.

                    We conducted this evaluation in accordance with generally
                    accepted Government auditing standards. Those standards
                    require that we plan and perform the review to obtain
                    sufficient, appropriate evidence to provide a reasonable basis
                    for our findings and conclusions based on our objective. We
                    believe that the evidence obtained provides a reasonable basis
                    for our finding and conclusions based on our objective.
                    Accordingly, we assessed significant internal controls and the
                    Department's implementation of the Government Performance
                    and Results Act of 1993 and determined that it had established
                    performance measures for its information and cyber security
                    program. Because our evaluation was limited, it would not
                    have necessarily disclosed all internal control deficiencies that
                    may have existed at the time of our evaluation. We did not
                    solely rely on computer-processed data to satisfy our objective.
                    However, computer assisted audit tools were used to perform
                    probes of various networks and drives. We validated the
                    results of the scans by confirming the weaknesses disclosed
                    with responsible on-site personnel and performed other
                    procedures to satisfy ourselves as to the reliability and
                    competence of the data produced by the tests. In addition, we
                    confirmed the validity of other data, when appropriate, by
                    reviewing supporting source documents.

                    The Department and NNSA waived an exit conference.




Page 12                                      Objective, Scope and Methodology
Appendix 2

                                   RELATED REPORTS

Office of Inspector General Reports

   •   Department's Management of Cloud Computing Services (OAS-RA-L-11-06, April
       2011). We noted several opportunities for improvement in the Department of
       Energy's (Department) cloud computing initiative and that certain areas related to
       management of the Magellan Project could be enhanced. Specifically, the
       Department had not yet prepared policies and procedures governing security and
       other risks and had not established coordination requirements among sites to prevent
       duplication or other problems with cloud deployment and problems existed with
       resource disposition plans and American Recovery and Reinvestment Act of 2009-
       related job reporting for the Magellan Project.

   •   Management Challenges at the Department of Energy (DOE/IG-0844, November
       2010). Based on the work performed during Fiscal Year (FY) 2010 and other risk
       assessment tools, the Office of Inspector General identified seven areas, including
       cyber security and safeguards and security, that remained as management challenges
       for FY 2011.

   •   The Department's Unclassified Cyber Security Program - 2010 (DOE/IG-0843,
       October 2010). Opportunities were identified for improvements in areas such as
       access controls, configuration and vulnerability management, web application
       integrity, and security planning and testing. In particular, Departmental elements had
       not always ensured that cyber security requirements were effectively implemented.
       In addition, the Department had not adequately monitored cyber security
       performance.

   •   Internal Controls over Computer Hard Drives at the Oak Ridge National Laboratory
       (INS-O-10-03, August 2010). The Oak Ridge National Laboratory's controls over the
       tracking of hard drives, which may contain sensitive unclassified information, were
       inadequate to prevent the unauthorized dissemination of sensitive unclassified
       information. Specifically, it had not implemented controls to encrypt, or track and
       control, hard drives that may contain sensitive unclassified information.

   •   Management Controls over the Development and Implementation of the Office of
       Energy Efficiency and Renewable Energy's Performance and Accountability for
       Grants in Energy System (OAS-RA-10-14, July 2010). The Performance and
       Accountability for Grants in Energy (PAGE) system was placed into operation before
       the required cyber security planning and testing was completed. This lack of
       planning and testing placed the PAGE system and the network on which it resided at
       increased risk that the confidentiality, integrity, and availability of the Department's
       information systems and data could be compromised.

   •   Management Controls over the Department's WinSAGA System for Energy Grants
       Management Under the Recovery Act (OAS-RA-10-05, March 2010). System


Page 13                                                                      Related Reports
Appendix 2 (continued)

       security planning documentation and control testing was incomplete and inconsistent.
       For example, the information contained in the system security plan was not
       representative of the entire computing environment. Also, a significant portion of the
       required security controls were excluded from testing. This exposed the system and
       data to a higher than necessary level of risk of compromise, loss, modification, and
       non-availability.

   •   The Office of Science's Management of Information Technology Resources (DOE/IG-
       0831, November 2009). For non-scientific computing environments, all seven of the
       field sites reviewed (two Federal, five contractor) had implemented security
       configurations that were less stringent than those included in the Federal Desktop
       Core Configuration (FDCC). This configuration was designed by the National
       Institute of Standards and Technology to ensure that Federal information systems had
       implemented a specific baseline of security controls, and its use was mandated by the
       Office of Management and Budget. Although Office of Science Headquarters had
       documented its rationale for deviating from the FDCC configuration, none of the
       seven field sites had identified and documented their deviations, as required.

   •   Protection of the Department of Energy's Unclassified Sensitive Electronic
       Information (DOE/IG-0818, August 2009). Opportunities existed to strengthen the
       protection of all types of sensitive unclassified electronic information. For example,
       sites had not ensured that sensitive information maintained on mobile devices was
       encrypted or they had improperly permitted sensitive unclassified information to be
       transmitted unencrypted through email or to offsite backup storage facilities; had not
       ensured that laptops taken on foreign travel were protected against security threats;
       and, were still working to complete required Privacy Impact Assessments.

   •   The Department's Cyber Security Incident Management Program (DOE/IG-0787,
       January 2008). Program elements and facility contractors established and operated as
       many as eight independent cyber security intrusion and analysis organizations whose
       missions and functions were partially duplicative and not well coordinated. Sites
       could also choose whether to participate in network monitoring activities performed
       by the organizations. Furthermore, the Department had not adequately addressed
       related issues through policy changes, despite identifying and acknowledging
       weaknesses in its cyber security incident management and response program.

Government Accountability Office Reports

   •   Information Security: Government-wide Guidance Needed to Assist Agencies in
       Implementing Cloud Computing (GAO-10-855T, July 2010)

   •   Cybersecurity: Continued Attention is Needed to Protect Federal Information
       Systems from Evolving Threats (GAO-10-834T, June 2010)

   •   Cybersecurity: Key Challenges Need to Be Addressed to Improve Research and
       Development (GAO-10-466, June 2010)


Page 14                                                                    Related Reports
Appendix 2 (continued)

  •   Information Security: Federal Guidance Needed to Address Control Issues with
      Implementing Cloud Computing (GAO-10-513, May 2010)

  •   Critical Infrastructure Protection: Update to National Infrastructure Protection Plan
      Includes Increased Emphasis on Risk Management and Resilience (GAO-10-296,
      March 2010)

  •   Information Security: Concerted Effort Needed to Consolidate and Secure Internet
      Connections at Federal Agencies (GAO-10-237, March 2010)

  •   Cybersecurity: Continued Efforts Are Needed to Protect Information Systems from
      Evolving Threats (GAO-10-230T, November 2009)

  •   Information Security: Actions Needed to Better Manage, Protect, and Sustain
      Improvements to Los Alamos National Laboratory's Classified Computer Network
      (GAO-10-28, October 2009)

  •   Critical Infrastructure Protection: OMB Leadership Needed to Strengthen Agency
      Planning Efforts to Protect Federal Cyber Assets (GAO-10-148, October 2009)

  •   Critical Infrastructure Protection: Current Cyber Sector-Specific Planning
      Approach Needs Reassessment (GAO-09-969, September 2009)

  •   Information Security: Agencies Continue to Report Progress, but Need to Mitigate
      Persistent Weaknesses (GAO-09-546, July 2009)

  •   Federal Information Security Issues: (GAO-09-817R, June 2009)

  •   Cybersecurity: Continued Federal Efforts Are Needed to Protect Critical Systems
      and Information (GAO-09-835T, June 2009)

  •   Information Security: Agencies Make Progress in Implementation of Requirements,
      but Significant Weaknesses Persist (GAO-09-701T, May 2009)

  •   Information Security: Cyber Threats and Vulnerabilities Place Federal Systems at
      Risk (GAO-09-661T, May 2009)

  •   National Cybersecurity Strategy: Key Improvements Are Needed to Strengthen the
      Nation's Posture (GAO-09-432T, March 2009)

  •   Nuclear Security: Los Alamos National Laboratory Faces Challenges in Sustaining
      Physical and Cyber Security Improvements (GAO-08-1180T, September 2008)

  •   Information Security: Actions Needed to Better Protect Los Alamos National
      Laboratory's Unclassified Computer Network (GAO-08-1001, September 2008)



Page 15                                                                 Related Reports
Appendix 2 (continued)

  •   Los Alamos National Laboratory: Long-Term Strategies Needed to Improve Security
      and Management Oversight (GAO-08-694, June 2008)

  •   Information Security: Progress Reported, but Weaknesses at Federal Agencies
      Persist (GAO-08-571T, March 2008)

  •   Information Security: Although Progress Reported, Federal Agencies Need to
      Resolve Significant Deficiencies (GAO-08-496T, February 2008)




Page 16                                                              Related Reports
Appendix 3




Page 17      Management Comments
Appendix 3 (continued)




Page 18                  Management Comments
Appendix 3 (continued)




Page 19                  Management Comments
Appendix 3 (continued)




Page 20                  Management Comments
Appendix 3 (continued)




Page 21                  Management Comments
                                                             IG Report No. DOE/IG-0856

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

    When you have completed this form, you may telefax it to the Office of Inspector
                  General at (202) 586-0948, or you may mail it to:
                        Office of Inspector General (IG-1)
                               Department of Energy
                               Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form.
